Before the Committee on Commerce, Science, and Transportation
Subcommittee on Surface Transportation and Merchant Marine
Infrastructure, Safety, and Security
United States Senate

For Release on Delivery
Expected at
10 a.m. EDT
                          Actions Needed To
Tuesday
May 22, 2007
                          Further Improve Railroad
CC-2007-060
                          Safety


                          Statement of
                          Kurt W. Hyde
                          Assistant Inspector General
                          for Surface and Maritime Programs
                          U.S. Department of Transportation
Chairman Lautenberg, Ranking Member Smith, and Members of the
Subcommittee:

We appreciate the opportunity to testify today on the reauthorization of the Federal
Railroad Safety Program. We commend this Subcommittee for its work as you
consider legislation to further improve railroad safety. Improvements in safety are
important because railroads transport people and freight over 790 million train
miles annually—by way of 173,000 miles of track—and affect the lives of
millions of Americans. Railroads employ about 232,000 workers and transport
about 42 percent of the nation’s freight. This industry will grow substantially in
the future. The Department estimates that, between 1998 and 2020, the amount of
freight transported by rail will increase by about 50 percent.

As we reported in our Fiscal Year 2007 Top Management Challenges issued to the
Department, the Federal Railroad Administration (FRA) must continue
implementing its safety initiatives since train accidents are on the rise overall. As
the FRA Administrator noted in a congressional hearing on May 8 of this year, the
rail industry’s safety record has improved, but a significant number of train
accidents continue to occur and the train accident rate has not shown substantive
improvement in recent years.

Chairman Lautenberg, our testimony today will draw from the body of work we
conducted over the last several years on grade crossing safety. At the request of
Senator Daniel K. Inouye, Representative James L. Oberstar, and Representative
Corrine Brown, we conducted our most recent audit in response to congressional
concerns about safety on the Nation’s nearly 240,000 grade crossings. On
May 3, 2007, we issued an audit report that recommends steps FRA can take to
better ensure compliance with mandatory reporting requirements and to address
sight obstructions at grade crossings. 1 Our work on grade crossing safety also
includes audit reports in 2005, 2004, and 1999 and testimony at several
congressional hearings. Taken together, our reports and testimonies represent a
comprehensive assessment of grade crossing safety issues and resulted in
recommendations for further enhancements to rail safety. FRA has responded
positively to the recommendations in our reports on grade crossing safety. See
Attachment 1 for a list of our grade crossing safety reports and testimonies.

FRA has also taken several actions to improve rail safety overall. For example, in
February 2005, we recommended that FRA submit to the Secretary a
comprehensive plan for implementing a fully functioning program that makes


1
    OIG Report No. MH-2007-044, “The Federal Railroad Administration Can Improve Highway-Rail Grade Crossing
    Safety By Ensuring Compliance With Accident Reporting Requirements and Addressing Sight Obstructions,”
    May 3, 2007. OIG reports can be accessed on our website at www.oig.dot.gov.
                                                                                                                          2

meaningful use of analysis of available safety, inspection, and enforcement data. 2
To this end, FRA instituted the National Inspection Plan, an inspection and
allocation program that uses predictive indicators to assist FRA in allocating
inspection and enforcement activities within a given region by railroad and by
state. This is a step in the right direction, but since the plan was implemented only
in March 2006, it is too soon to tell exactly how effective these measures will be
in the long term.

In May 2005, then Secretary Norman Mineta announced the National Rail Safety
Action Plan. This plan outlined FRA’s strategy for focusing oversight and
inspection resources on areas of greatest concern, targeting the most frequent and
highest risk causes of train accidents, and accelerating research with the best
potential to mitigate such risks. In addition to the actions in the plan, FRA reports
that its inspectors conduct thousands of inspections each year and engage in a
range of educational outreach activities on railroad safety issues.

Despite FRA’s efforts and recent improvements in the safety record of the rail
industry, serious train accidents continue to occur. The collision rate in recent
years has not slowed markedly. Train accidents increased by 31 percent overall
between 1995 and 2005. Further, while the industry’s record for transporting
hazardous materials has been good, nearly 1.7 million carloads of hazardous
materials 3 are transported by rail in the United States each year. The catastrophic
consequences that can arise due to the release of hazardous materials from rail cars
are a significant threat to safety. From 2003 through 2006, the railroads reported
145 rail incidents that involved hazardous materials, resulting in 19 fatalities and
423 injuries. These incidents resulted in the evacuation of 17,384 people from
their homes and businesses, caused at least $17 million in track damages, and
resulted in about $71 million in equipment damages.

Grade crossing safety is central to rail safety; that is, enhancements to this one
vulnerable area can have a tremendous, positive impact on overall rail safety. The
second highest percentage of rail-related fatalities—42 percent from 1995 through
2005—is due to collisions at grade crossings. 4 During this 10-year period,
collisions and fatalities at grade crossings were significantly reduced, by
34 percent and 38 percent, respectively. Most recently, however, these numbers
have increased. From 2003 to 2005, collisions rose by 2 percent and the number
of fatalities jumped by 7 percent.


2
    Memorandum to the Acting Federal Railroad Administrator, “Safety-Related Findings and Recommendations,”
    February 16, 2005.
3
    The Department of Transportation has classified about 3,500 materials as hazardous, ranging from mild irritants to
    those that are poisonous and radioactive.
4
    Trespassing fatalities was the leading category of rail-related fatalities for that period and accounted for 52 percent.
    Our 1999 report discusses the challenge of reducing trespassing fatalities.
                                                                                                                   3

Today, I would like to discuss five actions that railroads and FRA can take to
reduce grade crossing collisions and fatalities. These are areas on which you may
wish to focus as you evaluate current legislative proposals.

1. Ensuring Compliance With Mandatory Reporting Requirements

Railroads are charged with two distinct reporting requirements when a grade
crossing collision occurs. First, an immediate call to the National Response
Center (NRC) 5 is required for all serious6 grade crossing collisions. (The National
Transportation Safety Board defines “immediate” as within 2 hours.) This call
helps FRA determine whether a Federal investigation is needed at the accident
scene. Second, within 30 days of the end of the month in which collisions
occurred, the railroad is required to report every grade crossing collision to FRA—
not just the collisions that are deemed “serious.” More can be done to ensure
compliance with both of these reporting requirements.

Between May 1, 2003 and December 31, 2004, railroads failed to notify NRC
immediately in 115 of 543 reportable grade crossing collisions (21 percent) as
required; most of these involved fatalities or multiple injuries. Although these
unreported crossing collisions, which resulted in a total of 116 deaths, were
reported to FRA within 30 to 60 days after the collisions, that was too late to allow
Federal authorities to promptly decide whether or not to conduct an investigation.
In March 2005, FRA officials began issuing violations to railroads that failed to
follow FRA’s criteria for reporting grade crossing collisions to NRC. This
enforcement effort needs to be sustained to ensure that railroads properly report all
grade crossing collisions involving a fatality, serious injury, or substantial property
damage.

As stated in the report we issued on May 3, 2007, 12 railroads failed to report 139
collisions to FRA as required within 30 days after the end of the month in which
the collision occurred—with some being reported nearly 3 years late. These
collisions, which occurred between 1999 and 2004, resulted in 2 fatalities and
20 injuries, as ultimately reported by the railroads. While these numbers may not
seem large, it is unknown how many additional unreported collisions exist.
Because FRA did not routinely review grade crossing collision records maintained
by the railroads to ensure compliance with these requirements, it does not know
whether the 15,416 grade crossing collisions reported by railroads between 2001
and 2005 included all collisions that occurred during those years.

5
    Part of the Department of Homeland Security, NRC is the Federal Government’s 24-hour point of contact for
    environmental discharges. In addition, through agreements, NRC notifies FRA and other Federal agencies of train
    accidents and grade crossing collisions.
6
    FRA’s criteria for immediately reporting grade crossing collisions to NRC—“serious” collisions—include those with
    one fatality or five injuries, as well as other criteria.
                                                                                                              4

Accurate, timely, and complete reporting of grade crossing collisions serves the
important purpose of identifying safety problems so appropriate corrective actions
can be taken. Further, by ensuring that every grade crossing collision is reported
on time, FRA and states will have access to critical data for identifying dangerous
grade crossings and emerging accident trends. Complete information on grade
crossing collisions is also essential for state transportation officials who must
decide where to spend Federal funds set aside annually for crossing safety
improvements.       Under the Safe, Accountable, Flexible, and Efficient
Transportation Equity Act: A Legacy for Users (SAFETEA-LU) for Fiscal
Years 2005 through 2009, states can spend $220 million each year for grade
crossing safety improvements, such as automatic gates, flashing lights, and hazard
elimination projects. 7

When previously unreported grade crossing collisions are reported to FRA, states
have better information to use in making decisions. For example, after written
reports for five unreported grade crossing collisions in Iowa were submitted to
FRA, the Iowa Department of Transportation used the information provided by the
railroads as the basis for allocating funds for safety improvements at two grade
crossings. If those unreported collisions had not been identified, it is likely that
safety improvements would not have been made to these two dangerous crossings.

In our recent report, we recommended that FRA strengthen safety oversight by
ensuring that the railroads comply with mandatory requirements to report each
grade crossing collision to FRA’s accident reporting system by:

          a. Developing and implementing an action plan for conducting periodic
             reviews of the grade crossing collision records maintained by each
             railroad, including promptly notifying the responsible railroads when
             unreported collisions are identified.

          b. Testing random samples of the railroads’ grade crossing collision
             reports to determine whether the information is accurate, timely, and
             complete, including comparing such reports to those generated by local
             law enforcement agencies.

          c. Issuing a violation and assessing a civil penalty each time a railroad
             fails to submit a grade crossing collision report in accordance with
             Federal requirements, on a consistent basis. Moreover, FRA should
             assess higher civil penalties against each railroad that repeatedly fails to
             report crossing collisions.

7
    Hazard elimination projects include crossing closures and grade separations (separating railroad tracks from
    roadways).
                                                                                                                         5

In response to our report, FRA stated that it had begun to implement an action plan
for conducting cyclical reviews of highway-rail grade crossing accident reporting
by the major railroads. These reviews are intended to determine whether grade
crossing collisions are being properly reported.         FRA also agreed to make
obligatory the submission of violation reports for each detected violation that is a
clear-cut failure to report. 8 It will be important for FRA to follow through on its
commitments, as planned. You may want to consider directing FRA to report
annually on its cyclical reviews, including the number of reviews planned, the
number completed, and the overall results of the reviews.

2. Increasing FRA’s Involvement in Grade Crossing Collision
Investigations

With a current inspector workforce of 385, FRA has limited capability to
investigate approximately 3,000 grade crossing collisions that occur each year.
Instead, it places heavy reliance on railroad self-reporting. As we recommended
in our November 2005 audit report, FRA needs to broaden its review of such
reports with independent information. FRA uses accident reports received from
the railroads to evaluate the circumstances, probable causes, and responsible
parties for most grade crossing collisions. A variety of sources, such as police
reports, event recorder data, and eyewitness accounts, could be used to provide
additional insight. This should help boost public confidence in that accident data
are being obtained from sources other than just the railroad(s) involved.

FRA increased the number of grade crossing collision investigations during the
last 2 years. However, FRA still investigates less than 1 percent of all grade
crossing collisions, a fact that highlights the need for independent verification of
railroad-supplied information. The need for this increased involvement is shown
by the fact that, on average, one person dies and three people are injured in the
United States every day in grade crossing collisions.

To better evaluate the causes of collisions and railroads’ compliance with Federal
safety regulations, we recommended that FRA use a pilot program to collect and
analyze independent information on crossing collisions from railroads and local or
state law enforcement agencies. FRA concurred with our 2005 recommendation
and implemented a 1-year pilot study comprising one state from each of its eight
regions. The objective of this study was to assess the benefits and costs of
analyzing information from independent sources on crossing collisions, such as
police reports and locomotive event recorder data, to resolve conflicts. While the
pilot study was scheduled for completion last month, FRA has yet to issue the

8
    A clear-cut failure to report is defined by FRA as one that does not involve any question with regard to interpretation
    of the regulation or sufficiency of the facts constituting the alleged failure.
                                                                                                                     6

     results. FRA should report the results of the study as soon as possible and provide
     a copy of its report to this Subcommittee.

     3. Addressing Sight Obstructions at Grade Crossings Without
     Automated Warning Devices

     Active warning devices—such as automatic gates and flashing lights—call
     attention to approaching trains at some grade crossings. However, 76,000 public
     grade crossings are equipped only with passive warnings, such as crossbucks, stop
     signs, and pavement markings that advise motorists of the presence of the
     crossing, but don’t warn them when a train is approaching. For these passive
     grade crossings, greater attention is needed to ensure that motorists have a full
     view of approaching trains so that they can determine when it is safe to cross.
     Sight obstructions such as overgrown vegetation contribute to grade crossing
     collisions. As illustrated in Figure 1, vegetation growth at grade crossings can
     significantly reduce a motorist’s ability to see the track and approaching trains.
     From 2001 through 2005, railroads submitted 689 collision reports to FRA that
     documented such obstructions—242 people were injured in these collisions and
     87 died.

          Figure 1. Photographs of Highway Users’ Line of Sight at a
           Grade Crossing Before and After Vegetation Was Cleared
           Highway Users’ View                                         Highway Users’ View
         Before Clearing Vegetation                                  After Clearing Vegetation




Source: Illinois Commerce Commission*
*The State of Illinois requires every rail carrier to remove all brush, shrubbery, and trees from its right-of-way
 for a distance of at least 500 feet in either direction of a grade crossing.

     Currently, FRA regulations only require the railroads to address vegetation growth
     at public crossings and only to the extent that the vegetation reduces the visibility
     of road signs and signals. FRA regulations do not address other types of sight
     obstructions, such as permanent structures, standing railroad equipment, and
                                                                                  7

topography. As of March of this year, only 13 states had laws or regulations
addressing all types of sight obstructions. These laws vary widely, with mandated
sight distances ranging from 40 feet along the railroad property line to as much as
1,500 feet in both directions along the railroad right-of-way.

For the 37 states that lack laws or regulations for addressing sight obstructions at
grade crossings that are not protected with automated warning devices, more needs
to be done. Immediate safety benefits could be achieved if laws were established
to address all types of sight obstructions, such as structures that block highway
users’ views of approaching trains and overgrown vegetation.

FRA agreed to play a constructive role as part of the larger intermodal and
intergovernmental grade crossing team in response to our recommendation to
develop model legislation. Such legislation is needed for states to improve safety
by addressing sight obstructions at grade crossings that are equipped solely with
signs, pavement markings, and other passive warnings. However, in responding to
our recommendation, FRA also stated that it “. . . does not have general authority
or responsibility for grade crossing safety.” The Subcommittee should consider
whether it wishes to strengthen FRA’s role with respect to grade crossing safety.

4. Establishing Reporting Requirements for FRA’s National Grade
Crossing Inventory System

The accuracy and completeness of FRA’s national grade crossing inventory data,
particularly the identification of all public grade crossings and the types of
warning devices in place, can be improved through the establishment of
mandatory reporting requirements for railroads and states. This action is needed
to better monitor and improve high-risk crossings. In our June 2004 report on the
Highway-Rail Grade Crossing Safety Program, we recommended that FRA
establish mandatory reporting requirements through rulemaking or legislation to
improve the accuracy and completeness of its national grade crossing inventory
data. These data are used by state officials to develop priority lists of public
crossings that need safety improvements because they have a high probability of
collisions. However, mandatory reporting requirements have not been established.
Our analysis of FRA’s national grade crossing inventory system found that
36 percent of public grade crossing records have not been updated since 2000.

Mandatory reporting is even more important under SAFETEA-LU, which changed
the apportionment procedures. SAFETEA-LU requires that 50 percent of the
$220 million authorized be apportioned to the states for grade crossing safety
improvements based on a ratio of the number of public grade crossings in a state
to the number of public crossings nationwide. Our 2004 audit report stated that
                                                                                   8

targeting safety strategies on state and public grade crossings that continue to have
the most collisions is key to further reducing collisions and fatalities.

Voluntary reporting of grade crossing inventory information has not been
successful. To ensure that accurate and complete inventory data are available for
use in making decisions about grade crossing safety improvements, the
Subcommittee may wish to consider directing FRA and the Federal Highway
Administration to establish and enforce mandatory reporting requirements for
railroads and states.

5. Requiring States With the Most Dangerous Grade Crossings to
Develop Action Plans

In our June 2004 report, we recommended that FRA identify states having the
most grade crossing accidents year after year—particularly at crossings that have
experienced multiple accidents—and develop, with these states, an action plan
identifying specific solutions for improvement. Attachment 2 to our testimony
today is a map of the United States showing the number of collisions and fatalities
at grade crossings, by state, in 2005.

In March 2006, FRA completed the first plan to improve dangerous grade
crossings in Louisiana. The railroads operate in 57 of Louisiana’s 64 parishes on
3,000 rail miles and motorists drive over more than 6,000 public and private
crossings. As part of Louisiana’s action plan, FRA’s grade crossing data were
analyzed to identify public crossings with multiple collisions from 1999 through
2004. The resulting action plan focused chiefly on crossings located near the
intersection of two roadways. This focus was supported by data showing that
97 percent of the collisions at multi-collision crossings occurred near highway
intersections. For 130 of the 177 crossings with multiple collisions, Louisiana
transportation officials took actions to ensure that flashing lights, gates, or
crossing closures were installed.

FRA’s efforts in Louisiana and its similar ongoing work with Texas are steps in
the right direction. Continued action is warranted to identify and address the most
dangerous grade crossings in the states with the most grade crossing collisions.
Congress may want to consider requiring FRA to increase this level of effort by
conducting similar projects in other states with high numbers of grade crossing
collisions.

Chairman Lautenberg, this concludes my statement.     I would be pleased to
respond to any questions that you or other members of the Subcommittee may
have at this time.
                                                                          9



ATTACHMENT 1. OFFICE OF INSPECTOR GENERAL
GRADE CROSSING SAFETY WORK PRODUCTS
   1. OIG Testimony, CC-2007-052, “Opportunities to Further Improve Railroad
      Safety,” May 8, 2007
   2. OIG Report No. MH-2007-044, “The Federal Railroad Administration Can
      Improve Highway-Rail Grade Crossing Safety By Ensuring Compliance
      With Accident Reporting Requirements and Addressing Sight
      Obstructions,” May 3, 2007
   3. OIG Testimony, CC-2007-018, “Reauthorization of the Federal Railroad
      Safety Program,” January 30, 2007
   4. OIG Report No. MH-2006-016, “Audit of Oversight of Highway-Rail
      Grade Crossing Accident Reporting, Investigations, and Safety
      Regulations,” November 28, 2005
   5. OIG Testimony, CC-2005-060, “Highway-Railroad Grade Crossing Safety
      Issues,” July 21, 2005
   6. OIG Memorandum “Safety-Related Findings and Recommendations,”
      February 16, 2005
   7. OIG Report No. MH-2004-065, “Highway-Rail Grade Crossing Safety
      Program,” June 16, 2004
   8. OIG Report No. RT-1999-140, “Rail-Highway Grade Crossing Safety,”
      September 30, 1999
OIG reports and testimony statements can be accessed on the OIG website at
www.oig.dot.gov.
                                                                                                                   10




      ATTACHMENT 2. U. S. MAP OF THE NUMBER OF
      REPORTED COLLISIONS AND FATALITIES AT GRADE
      CROSSINGS, BY STATE, IN 2005
            6
           WA
           57                                                                                                                        0
                             3            8                                                                                         ME
                            MT           ND                                                                                          5
       1                    20           18              9                                                                0    0          1
      OR          1                                     MN                                                         13 VT NH              MA
      27         ID                       2             65               13                                        NY 4 2                11
                 23                      SD                              WI            5
                              0                                                                                    43
                                         18                              84            MI                                                 0
                             WY                                                        96                                                 RI
                              1                               6                                                5                      3
                                         12                                                                                               1
22           1                                               IA                                               PA               2     CT
CA          NV                           NE                  77              31     21       8                80               NJ     6
148          4          2                50                                  IL     IN      OH                                 44
                       UT          6                                        180     175     134     1                                1
                                                                                                               2
                       18         CO          7              17                            7       WV                               DE
                                                                                                              VA               1
                                                                                                                               1
                                  36          KS             MO                                    35                                8
                                                                                          KY                  51              MD
                                                                                                                              MD
                                              63             64                           86                                  19
                                                                                                                6             19
                                                                                                               NC
                       2                            6                             7 TN 78                      67          0
                      AZ      4                    OK              8                                     9                DC
                      39     NM                                   AR                                    SC                 0
                                                   64
                             20                                   72          10    16           12     75
                                                                              MS    AL          GA
                                           23                                 79    113         130
                                                                  20
                                          TX
                                                                  LA
                                          323                     131
 0                                                                                                      17           Fatalitie s
AK                                                                                                      FL
 2                                                                                                      103             Collisions



                                                                        0-16 Fatalitie s (43 State s & DC )
                             0
                             HI                                         17-31 Fatalitie s (7 State s)
                             1




      Source: OIG analysis of FRA data
                                                                    11


The following page contains textual version of the graph found in this
document. This page was not in the original document but has been added
here to assist screen readers.
                                                                              12

               Actions Needed To Further Improve Railroad Safety
                       Section 508 Compliant Presentation

Exhibit D. U. S. Map of the Number of Reported Collisions and Fatalities at
Grade Crossings by State in 2005

                              2005 Grade Crossing Data Per State
                #    State                  Collisions Fatalities Injuries
                1    Alabama                       113         16      45
                2    Alaska                          2           0       0
                3    Arizona                        39           2       5
                4    Arkansas                       72           8     40
                5    California                    148         22      58
                6    Colorado                       36           6     18
                7    Connecticut                     6           3       2
                8    Delaware                        8           1       3
                9    District of Columbia            0           0       0
                10   Florida                       103         17      21
                11   Georgia                       130         12      18
                12   Hawaii                          1           0       0
                13   Idaho                          23           1       6
                14   Illinois                      180         31      82
                15   Indiana                       175         21      26
                16   Iowa                           77           6     32
                17   Kansas                         63           7     32
                18   Kentucky                       86           7     26
                19   Louisiana                     131         20      44
                20   Maine                           5           0       2
                21   Maryland                       19           1       1
                22   Massachusetts                  11           1       6
                23   Michigan                       96           5     13
                24   Minnesota                      65           9     28
                25   Mississippi                    79         10      30
                26   Missouri                       64         17      31
                27   Montana                        20           3       4
                28   Nebraska                       50         12      22
                29   Nevada                          4           1       0
                30   New Hampshire                   2           0       0
                                            13


31   New Jersey          44     2      11
32   New Mexico          20     4       7
33   New York            43    13      10
34   North Carolina      67     6      34
35   North Dakota        18     8       4
36   Ohio               134     8      37
37   Oklahoma            64     6      34
38   Oregon              27     1       4
39   Pennsylvania        80     5      17
40   Rhode Island         1     0       0
41   South Carolina      75     9      17
42   South Dakota        18     2       9
43   Tennessee           78     7      28
44   Texas              323    23     143
45   Utah                18     2       8
46   Vermont              4     0       3
47   Virginia            51     2      12
48   Washington          57     6      14
49   West Virginia       35     1       4
50   Wisconsin           84    13      20
51   Wyoming              1     0       1
     Total            3,050   357   1,012
